Audit Report




OIG-10-005
FINANCIAL MANAGEMENT:
Report on the Bureau of the Public Debt Trust Fund Management
Branch Schedules for Selected Trust Funds as of and for the
Year Ended September 30, 2009
November 6, 2009




Office of
Inspector General
Department of the Treasury
                                         DEPARTMENT OF THE TREASURY
                                               W ASHINGTON, D.C. 20220




     OFFICE OF
INSPECTOR GE NER AL
                                                 November 6, 2009


             MEMORANDUM FOR VAN ZECK, COMMISSIONER
                            BUREAU OF THE PUBLIC DEBT

             FROM:                    Michael Fitzgerald
                                      Director, Financial Audits

             SUBJECT:                 Report on the Bureau of the Public Debt
                                      Trust Fund Management Branch Schedules for
                                      Selected Trust Funds as of and for the
                                      Year Ended September 30, 2009


             I am pleased to transmit the attached Report on the Bureau of the Public Debt Trust
             Fund Management Branch (TFMB) Schedule of Assets and Liabilities and the related
             Schedule of Activity of Selected Trust Funds as of and for the year ended
             September 30, 2009 (the Schedules). Under a contract monitored by the Office of
             Inspector General, KPMG LLP, an independent certified public accounting firm,
             performed an examination of TFMB’s assertions pertaining to the Schedules as of
             and for the year ended September 30, 2009. These Schedules relate solely to the
             functions performed by TFMB as custodian of the following Trust Funds’ monies and
             investments:

                      •   Federal Supplementary Medical Insurance Trust Fund,
                      •   Federal Hospital Insurance Trust Fund,
                      •   Highway Trust Fund,
                      •   Airport and Airway Trust Fund,
                      •   Hazardous Substance Superfund Trust Fund,
                      •   Leaking Underground Storage Tank Trust Fund,
                      •   Oil Spill Liability Trust Fund,
                      •   Harbor Maintenance Trust Fund,
                      •   Inland Waterways Trust Fund, and
                      •   South Dakota Terrestrial Wildlife Habitat Restoration
                          Trust Fund

             The contract required that the examination be performed in accordance with
             generally accepted government auditing standards and the attestation standards
             established by the American Institute of Certified Public Accountants.
Page 2


In its examination of TFMB’s assertions pertaining to the Schedules, KPMG LLP,
found that TFMB’s assertions (which are included in the Independent Auditors’
Report on Management’s Assertions) are fairly stated, in all material respects, based
on the measurement and disclosure criteria set forth in note 1 to the Schedules.

In connection with the contract, we reviewed KPMG LLP’s report and related
documentation and inquired of its representatives. Our review, as differentiated from
an examination of assertions in accordance with generally accepted government
auditing standards, was not intended to enable us to express, and we do not
express, an opinion on TFMB’s assertions. KPMG LLP is responsible for the attached
auditors’ report dated November 5, 2009 and the conclusions expressed in the
report. However, our review disclosed no instances where KPMG LLP did not
comply, in all material respects, with generally accepted government auditing
standards.

Should you have any questions, please contact me at (202) 927-5789, or a member
of your staff may contact Mark S. Levitt, Manager, Financial Audits at
(202) 927-5076.

Attachment

cc:   Richard L. Gregg
      Acting Fiscal Assistant Secretary
            U. S. DEPARTMENT OF THE TREASURY
BUREAU OF THE PUBLIC DEBT TRUST FUND MANAGEMENT BRANCH

            Schedules and Notes for Selected Trust Funds

           As of and for the Year Ended September 30, 2009
                         U.S. DEPARTMENT OF THE TREASURY
             BUREAU OF THE PUBLIC DEBT TRUST FUND MANAGEMENT BRANCH


                                              Table of Contents



                                                                      Page

I     Independent Auditors’ Report on Management’s Assertions           1

II    Schedule of Assets and Liabilities of Selected Trust Funds        4

III   Schedule of Activity of Selected Trust Funds                      7

IV Notes to the Schedules of Selected Trust Funds                      10
I.   INDEPENDENT AUDITORS’ REPORT ON
        MANAGEMENT’S ASSERTIONS
                               KPMG LLP
                               2001 M Street, NW
                               Washington, DC 20036




                        Independent Auditors’ Report on Management’s Assertions


Inspector General, U.S. Department of the Treasury, and
Commissioner, Bureau of the Public Debt:

We have examined the following assertions of the Trust Fund Management Branch (TFMB) of the Bureau of the
Public Debt (BPD) of the U.S. Department of the Treasury (Treasury) with respect to the applicable accounts of
each trust fund included on the accompanying Schedule of Assets and Liabilities of Selected Trust Funds as of
September 30, 2009 and the related Schedule of Activity of Selected Trust Funds for the year then ended
(Schedules):

•   Fund balance with Treasury is reported based on the balance reported by Treasury’s Financial Management
    Service (FMS) in the Government-wide Accounting and Reporting Modernization Project (GWA) Account
    Statement and reconciling transactions identified and recorded by TFMB.

•   Interest receivables are calculated and reported by TFMB based on the investment terms received and
    recorded by TFMB from BPD’s Federal Investments Branch (FIB) in the investment confirmations and
    monthly statements of account.

•   Other receivables are reported based on amounts received and recorded by TFMB from the program agencies
    responsible for the respective trust fund activity.

•   Investments, net are calculated and reported at net cost based on the cost and premium/discount amounts
    reported to TFMB in the investment confirmations and monthly statements of account received from FIB.

•   The market value of investments is calculated and reported by TFMB using the recorded investment cost and
    the market rates published in the September 30, 2009 Treasury Quote file and unrealized gains and losses are
    calculated and reported by TFMB as the difference between the market value and the investments, net.

•   Program agency equity is calculated and reported by TFMB based on the assets of the trust fund.

•   Available program agency equity is reported based on amounts received and recorded by TFMB from the
    program agencies responsible for the respective trust fund activity.

•   Other program agency equity is calculated and reported by TFMB as the difference between the assets of the
    trust fund and the available program agency equity received and recorded by TFMB from the program
    agencies responsible for the respective trust fund activity.




                                                                        2
                                      KPMG LLP, a U.S. limited liability partnership, is the U.S.
                                      member firm of KPMG International, a Swiss cooperative.
•   Interest revenue is reported based on the amounts received and recorded by TFMB from FIB in the monthly
    statements of account and accrued interest and amortization calculated by TFMB. Amortization of any
    premiums and discounts on investments is calculated and reported by TFMB based on the investment terms
    reported to TFMB by FIB using the straight-line method for investments with a term equal to or less than one
    year and using the level yield method which approximates the interest method for investments with a term of
    greater than one year.

•   Penalties, fines, administrative fees, transfers in from program agencies, premiums, cost recoveries, and other
    income are reported based on the amounts received and recorded by TFMB from FMS and the program
    agencies responsible for the respective trust fund activity.

•   Tax revenues, tax adjustments, and tax refunds are reported based on the amounts received and recorded by
    TFMB from the Office of Tax Analysis, Internal Revenue Service, FMS, and/or U.S. Customs and Border
    Protection.

•   Transfers to program agencies are calculated and reported based on the disbursement request amounts
    received and recorded by TFMB from the program agencies responsible for the respective trust fund activity
    and the disbursement amounts returned and recorded by TFMB from the program agencies responsible for
    the respective trust fund activity.

•   Reimbursements to Treasury bureaus and the General Fund are reported based on the disbursement request
    amounts received and recorded by TFMB from various Treasury bureaus, including BPD and FMS.

TFMB’s management is responsible for the assertions. Our responsibility is to express an opinion on these
assertions based on our examination. Our examination was conducted in accordance with attestation standards
established by the American Institute of Certified Public Accountants (AICPA) and the standards applicable to
attestation engagements contained in Government Auditing Standards issued by the Comptroller General of the
United States and, accordingly, included examining on a test basis, evidence supporting the assertions stated
above and performing such other procedures as we considered necessary in the circumstances. We believe that
our examination provides a reasonable basis for our opinion.

In our opinion, TFMB’s assertions referred to above relating to the applicable accounts of each trust fund
reported on the accompanying Schedule of Assets and Liabilities of Selected Trust Funds as of September 30,
2009, and the related Schedule of Activity of Selected Trust Funds for the year then ended, are fairly stated, in all
material respects based on the measurement and disclosure criteria set forth in note 1 to the schedules of selected
trust funds.

This report is intended solely for the information and use of the management of BPD, program agencies
responsible for their respective trust fund activity, the U.S. Department of the Treasury Office of Inspector
General, the Office of Management and Budget, the Government Accountability Office, and the U. S. Congress,
and is not intended to be and should not be used by anyone other than these specified parties.




November 5, 2009




                                                         3
II. SCHEDULE OF ASSETS AND LIABILITIES OF
           SELECTED TRUST FUNDS
                                               U.S. DEPARTMENT OF THE TREASURY
                                   BUREAU OF THE PUBLIC DEBT TRUST FUND MANAGEMENT BRANCH
                                              Schedule of Assets and Liabilities of Selected Trust Funds
                                                              As of September 30, 2009


                                           Federal
                                        Supplementary            Federal                                                    Hazardous
                                           Medical               Hospital                                    Airport        Substance
                                          Insurance             Insurance                 Highway          and Airway       Superfund
                                         Trust Fund             Trust Fund               Trust Fund        Trust Fund       Trust Fund
Assets:
  Fund balance with Treasury        $      123,155,462            14,532,169           1,085,861,489        (204,227,476)      (7,975,022)
  Interest receivables                     666,545,017         3,703,787,900                      —           46,289,877       19,624,298
  Other receivables                                 —            492,000,000                      —                   —                —
  Investments, net                      61,763,952,000       309,701,733,000          11,484,437,000       7,829,468,000    3,437,713,772
       Total assets                     62,553,652,479       313,912,053,069          12,570,298,489       7,671,530,401    3,449,363,048
Liabilities:
  Program agency equity:
     Available                          27,620,833,741        24,325,582,280          12,570,298,489       3,772,212,436    3,277,769,920
     Other                              34,932,818,738       289,586,470,789                      —        3,899,317,965      171,593,128
     Total program agency equity        62,553,652,479       313,912,053,069          12,570,298,489       7,671,530,401    3,449,363,048
       Total liabilities            $   62,553,652,479       313,912,053,069          12,570,298,489       7,671,530,401    3,449,363,048




                                                                           5
                                             U.S. DEPARTMENT OF THE TREASURY
                                 BUREAU OF THE PUBLIC DEBT TRUST FUND MANAGEMENT BRANCH
                                              Schedule of Assets and Liabilities of Selected Trust Funds
                                                              As of September 30, 2009

                                                                                                                           South Dakota
                                             Leaking                                                                        Terrestrial
                                          Underground               Oil Spill             Harbor             Inland       Wildlife Habitat
                                          Storage Tank              Liability            Maintenance       Waterways        Restoration
                                           Trust Fund              Trust Fund            Trust Fund        Trust Fund       Trust Fund
Assets:
  Fund balance with Treasury         $      (10,359,000)               9,143,787            76,084,471      (2,308,000)               —
  Interest receivables                       22,838,859                7,853,544            29,332,527              —            862,430
  Other receivables                                  —                        —                     —               —                 —
  Investments, net                        3,399,770,983            1,431,892,816         5,007,117,764      60,029,355       130,704,356
        Total assets                      3,412,250,842            1,448,890,147         5,112,534,762      57,721,355       131,566,786


Liabilities:
  Program agency equity:
     Available                              305,445,189              134,927,441                    —       43,450,554        21,566,786
     Other                                3,106,805,653            1,313,962,706         5,112,534,762      14,270,801       110,000,000
     Total program agency equity          3,412,250,842            1,448,890,147         5,112,534,762      57,721,355       131,566,786
        Total liabilities            $    3,412,250,842            1,448,890,147         5,112,534,762      57,721,355       131,566,786


See accompanying notes to the schedules of selected trust funds.




                                                                              6
III. SCHEDULE OF ACTIVITY OF
      SELECTED TRUST FUNDS
                                                   U.S. DEPARTMENT OF THE TREASURY
                                       BUREAU OF THE PUBLIC DEBT TRUST FUND MANAGEMENT BRANCH
                                                      Schedule of Activity of Selected Trust Funds
                                                        For the Year Ended September 30, 2009


                                                  Federal
                                               Supplementary             Federal                                                   Hazardous
                                                  Medical                Hospital                                   Airport        Substance
                                                 Insurance              Insurance              Highway            and Airway       Superfund
                                                Trust Fund             Trust Fund             Trust Fund          Trust Fund       Trust Fund
Revenues:
  Interest revenue                         $     2,975,167,430        15,614,059,312                 1,151,229     281,994,368       52,064,601
  Penalties, fines, and
     administrative fees                                    —          1,119,817,509            25,586,445                   —         1,374,364
  Transfers in from program agencies           194,268,583,220        14,871,909,234         7,176,077,685            8,643,130    1,747,911,327
  Tax revenues and adjustments                              —        194,102,332,506        35,981,424,000       10,679,280,000               —
  Tax refunds                                               —                     —         (1,045,767,000)        (110,034,000)              —
  Premiums                                      61,612,619,695         2,927,755,161                    —                    —                —
  Cost recoveries                                           —                     —                     —                    —        96,782,224
  Other income                                      12,929,340             2,307,877                    —                    —                —
             Total revenues                    258,869,299,685       228,638,181,599        42,138,472,359       10,859,883,498    1,898,132,516
Disposition of revenues:
  Transfers to program agencies                256,161,987,419       237,762,904,657        44,647,416,352       11,783,272,422    1,377,895,996
  Reimbursements to Treasury bureaus
     and the General Fund                             355,133            183,992,724                       —                —                —
             Total disposition of
               revenues                        256,162,342,552       237,946,897,381        44,647,416,352       11,783,272,422    1,377,895,996
             Net increase/(decrease)
               in program agency
               equity                      $     2,706,957,133        (9,308,715,782)       (2,508,943,993)       (923,388,924)     520,236,520




                                                                            8
                                                    U.S. DEPARTMENT OF THE TREASURY
                                        BUREAU OF THE PUBLIC DEBT TRUST FUND MANAGEMENT BRANCH
                                                          Schedule of Activity of Selected Trust Funds
                                                            For the Year Ended September 30, 2009


                                                                                                                                   South Dakota
                                                        Leaking                                                                     Terrestrial
                                                     Underground             Oil Spill             Harbor           Inland        Wildlife Habitat
                                                     Storage Tank            Liability            Maintenance     Waterways         Restoration
                                                      Trust Fund            Trust Fund            Trust Fund      Trust Fund        Trust Fund
Revenues:
  Interest revenue                              $      124,087,647             21,151,786           143,251,332       444,853          4,265,251
  Penalties, fines, and
     administrative fees                                        —             14,677,446                     —             —                  —
  Transfers in from program agencies                            —                     —                      —             —                  —
  Tax revenues and adjustments                         169,186,000           447,405,772          1,125,242,778    75,952,000                 —
  Tax refunds                                                   —                     —                      —             —                  —
  Premiums                                                      —                     —                      —             —                  —
  Cost recoveries                                               —              5,523,719                     —             —                  —
  Other income                                                  —                     —                      —             —          10,000,000
              Total revenues                           293,273,647           488,758,723          1,268,494,110    76,396,853         14,265,251
Disposition of revenues:
  Transfers to program agencies                        119,200,000           221,871,093            807,539,000   149,469,112          1,000,000
  Reimbursements to Treasury bureaus
     and the General Fund                                          —               26,020                   —              —                  —
              Total disposition of
                revenues                               119,200,000           221,897,113            807,539,000   149,469,112          1,000,000
              Net increase/(decrease)
                in program agency
                equity                          $      174,073,647           266,861,610            460,955,110    (73,072,259)       13,265,251


See accompanying notes to the schedules of selected trust funds.




                                                                               9
IV. NOTES TO THE SCHEDULES OF
      SELECTED TRUST FUNDS
                         U.S. DEPARTMENT OF THE TREASURY
             BUREAU OF THE PUBLIC DEBT TRUST FUND MANAGEMENT BRANCH
                                Notes to the Schedules of Selected Trust Funds
                                              September 30, 2009



(1)   Summary of Significant Accounting Policies
      (a)   Reporting Entity
            The accompanying Schedule of Assets and Liabilities of Selected Trust Funds and related Schedule
            of Activity of Selected Trust Funds (Schedules) pertain to the aspects of certain Treasury-managed
            Trust Funds that are serviced by the Trust Fund Management Branch (TFMB) of the Bureau of the
            Public Debt (BPD) of the U.S. Department of the Treasury (Treasury). The Trust Funds were created
            by legislation enacted by the U.S. Congress.

            TFMB acts as a service organization which processes receipts, disbursements, and transfers related
            to the trust funds based upon information received and recorded by TFMB from the Internal Revenue
            Service (IRS) and the Office of Tax Analysis (OTA), U.S Customs and Border Protection, the
            program agencies responsible for their trust fund activity, Treasury’s Financial Management Service
            (FMS), and other Treasury bureaus. As part of its functions, BPD also manages the investments,
            maintains related accounting records and supporting documentation, and reports financial activity.
            The financial activity reported in these Schedules is limited to the activities performed by TFMB.

            The program agencies are responsible for administering, regulating, and monitoring the program
            activities funded by the trust funds. The program agencies make all decisions regarding dispositions
            from the trust funds. As such, these Schedules do not include information regarding the ultimate
            disposition of amounts transferred from the trust funds to the program agencies.

      (b)   Basis of Presentation
            The Schedules have been prepared to report the assets and liabilities of the trust funds under the
            function performed by TFMB, and the related activity, in accordance with the measurement and
            criteria discussed below.

      (c)   Basis of Accounting
            The Schedules are recorded using the accrual basis of accounting in accordance with U.S generally
            accepted accounting principles.

      (d)   Fund Balance with Treasury
            The Trust Funds do not maintain cash in commercial bank accounts. Treasury processes cash
            receipts and disbursements. Fund Balance with Treasury represents net revenue, disposition of
            revenue, and investment activity. Fund balance with Treasury is reported based on the balance
            reported by Treasury’s Financial Management Service in the Government-wide Accounting and
            Reporting Modernization Project (GWA) Account Statement and reconciling transactions identified
            and recorded by TFMB. A year end tax adjustment (see Note 1j) caused some of the funds to report
            a negative Fund Balance with Treasury.




                                                      11
                   U.S. DEPARTMENT OF THE TREASURY
       BUREAU OF THE PUBLIC DEBT TRUST FUND MANAGEMENT BRANCH
                             Notes to the Schedules of Selected Trust Funds
                                          September 30, 2009



(e)   Interest Receivables
      Interest receivables are calculated and reported by TFMB based on the investment terms received
      and recorded by TFMB from BPD’s Federal Investments Branch (FIB) in the investment
      confirmations and monthly statements of account.

(f)   Other Receivables
      Other receivables are reported based on amounts received and recorded by TFMB from the program
      agencies responsible for the respective trust fund activity.

(g)   Investments, Net
      Pursuant to authorizing legislation, the Secretary of the Treasury shall invest, at the direction of the
      program agencies, such portion of the trust fund balances as is not, in the judgment of the program
      agencies, necessary to meet current withdrawals. Such investments shall be in non-marketable par
      value or non-marketable market-based securities as authorized by legislation. Par value securities are
      special issue bonds or certificates of indebtedness that bear interest determined by legislation or the
      Treasury. Market-based securities are Treasury securities that are not traded on any securities
      exchange, but mirror the prices of marketable securities with similar terms. Both par value and
      market-based securities are issued and redeemed by FIB.

      TFMB follows Treasury fiscal investment policy guidelines. TFMB determines the term of the
      securities purchased based on direction provided by the program agencies. The securities are
      acquired and held in the name of the Secretary of the Treasury for the trust funds. The interest on and
      proceeds from the sale or redemption of any security held for the trust funds are credited to the
      appropriate trust fund. Investments are selected for liquidation based on the following order: earliest
      maturity date, lowest prevailing interest rate, and first security in first security out.

      Investments, net are calculated and reported at net cost based on the cost and premium/discount
      amounts reported to TFMB in the investment confirmations and monthly statements of account
      received from FIB. The market value of investments is calculated and reported by TFMB using the
      recorded investment cost and the market rates published in the September 30, 2009 Treasury Quote
      file (the last work day of the fiscal year) and unrealized gains and losses are calculated and reported
      by TFMB as the difference between the market value and the investments, net. The investments are
      exposed to various risks such as interest rate and market risks. Such risks, and the resulting
      investment market values, may be influenced by changes in economic conditions and market
      perceptions and expectations. Accordingly, it is at least reasonably possible that material changes to
      the market values of the investments will occur in the near term.

(h)   Available and Other Program Agency Equity
      Program agency equity is calculated and reported by TFMB based on the assets of the trust fund.
      Program agency equity consists of available and other program agency equity.

      Available program agency equity represents the amount of program agency equity that may be
      transferred as of September 30, 2009 to the program agencies at the request of the program agencies.

                                                  12
                   U.S. DEPARTMENT OF THE TREASURY
       BUREAU OF THE PUBLIC DEBT TRUST FUND MANAGEMENT BRANCH
                           Notes to the Schedules of Selected Trust Funds
                                          September 30, 2009



      Available program agency equity is reported based on amounts received and recorded by TFMB
      from the program agencies responsible for the respective trust fund activity.

      The remaining balance of program agency equity is reported as other program agency equity. Other
      program agency equity is calculated and reported by TFMB as the difference between the assets of
      the trust fund and the available program agency equity received and recorded by TFMB from the
      program agencies responsible for the respective trust fund activity.

(i)   Interest Revenue
      Interest revenue is reported based on the amounts received and recorded by TFMB from FIB in the
      monthly statements of account and accrued interest and amortization calculated by TFMB.
      Amortization of any premiums and discounts on investments is calculated and reported by TFMB
      based on the investment terms reported to TFMB by FIB using the straight-line method for
      investments with a term equal to or less than one year and using the level yield method which
      approximates the interest method for investments with a term of greater than one year.

(j)   Revenues
      Pursuant to authorizing legislation, revenue activity recorded in the trust funds consists primarily of
      interest, penalties, fines, administrative fees, transfers in from program agencies, tax revenues, tax
      adjustments, tax refunds, premiums, cost recoveries, and other income, which are transferred from
      the General Fund of the Treasury or from program agencies to the Trust Funds.

      Penalties, fines, administrative fees, transfers in from program agencies, premiums, cost recoveries,
      and other income are reported based on the amounts received and recorded by TFMB from FMS and
      the program agencies responsible for the respective trust fund activity.

      Tax revenues, tax adjustments, and tax refunds are reported based on the amounts received and
      recorded by TFMB from the OTA, IRS, FMS, and/or U.S. Customs and Border Protection. OTA
      estimates the tax revenues each month based on projected tax receipts and provides the estimates to
      FMS. FMS transfers the amount of estimated taxes to the trust fund accounts. The IRS or program
      agencies generally certify the tax revenues within two quarters after the taxes are estimated (i.e., 1st
      quarter estimate is certified in the 3rd quarter) and provide this certification to FMS. FMS calculates
      the tax adjustment as the difference between the taxes estimated by OTA and taxes certified by the
      IRS/program agencies and adjusts the trust fund accounts accordingly. FMS reports the tax
      adjustments to TFMB. As a result of the timing of the certifications, the Schedule of Activity
      includes certified tax revenues (i.e. actual tax revenues) for the first three quarters of the fiscal year
      and estimated tax revenues for the last quarter of the fiscal year.

(k)   Transfers to Program Agencies
      Dispositions from the Trust Funds are made in accordance with the authorizing legislation to the
      program agencies, which are responsible for the ultimate disposition of such funds, to cover program
      administration and related costs as defined by law. Transfers to program agencies are calculated and
      reported based on the disbursement request amounts received and recorded by TFMB from the
      program agencies responsible for the respective trust fund activity and the disbursement amounts
                                                   13
                         U.S. DEPARTMENT OF THE TREASURY
             BUREAU OF THE PUBLIC DEBT TRUST FUND MANAGEMENT BRANCH
                                Notes to the Schedules of Selected Trust Funds
                                              September 30, 2009



            returned and recorded by TFMB from the program agencies responsible for the respective trust fund
            activity.

      (l)   Reimbursements to Treasury Bureaus and the General Fund
            In the case of certain trust funds, BPD and FMS are authorized by law to receive direct
            reimbursement from the trust funds for certain administrative expenses. Also, the Secretary of the
            Treasury is directed by law to charge trust funds to reimburse the General Fund for administrative
            expenses incurred by other Treasury bureaus in performing activities related to administering the
            trust funds. These reimbursement amounts are determined by Treasury based on its assessment of the
            value of the services provided. Reimbursements to Treasury bureaus and the General Fund are
            reported based on the disbursement request amounts received and recorded by TFMB from various
            Treasury bureaus, including BPD and FMS.

(2)   Investments, Net
      Federal Supplementary Medical Insurance Trust Fund
      Investments at September 30, 2009, are non-marketable, par value intra governmental securities with a cost
      of $61,763,952,000.

      Federal Hospital Insurance Trust Fund
      Investments at September 30, 2009, are non-marketable, par value intra governmental securities with a cost
      of $309,701,733,000.

      Highway Trust Fund
      Investments at September 30, 2009, are non-marketable, par value intra governmental securities with a cost
      of $11,484,437,000. In accordance with Public Law 105-277, 112 Statute 2681, investments held by the
      Trust Fund ceased earning interest after September 30, 1998. However, the fund can earn interest pursuant
      to the Cash Management Improvement Act.

      Airport and Airway Trust Fund
      Investments at September 30, 2009, are non-marketable, par value intra governmental securities with a cost
      of $7,829,468,000.




                                                      14
                   U.S. DEPARTMENT OF THE TREASURY
       BUREAU OF THE PUBLIC DEBT TRUST FUND MANAGEMENT BRANCH
                          Notes to the Schedules of Selected Trust Funds
                                       September 30, 2009



Hazardous Substance Superfund Trust Fund
Investments at September 30, 2009, are non-marketable, market-based intra governmental securities as
follows:

                                                          Net
                                                     unamortized
                                                       premium              Net              Market
                                    Cost              (discount)        investments           value
 One-day certificates         $   582,078,191            N/A             582,078,191        582,078,191
 Notes                          2,729,637,464         125,998,117      2,855,635,581      2,856,738,973
           Total              $ 3,311,715,655         125,998,117      3,437,713,772      3,438,817,164


The net unrealized gain on investments is $1,103,392 at September 30, 2009.

Leaking Underground Storage Tank Trust Fund
The investments at September 30, 2009, are non-marketable, market-based intra governmental securities as
follows:

                                                          Net
                                                     unamortized
                                                       premium              Net              Market
                                    Cost              (discount)        investments           value
 One-day certificates         $   134,034,789            N/A             134,034,789        134,034,789
 Notes                          3,195,957,505          69,778,689      3,265,736,194      3,401,696,977
           Total              $ 3,329,992,294          69,778,689      3,399,770,983      3,535,731,766



The net unrealized gain on investments is $135,960,783 at September 30, 2009.




                                                15
                   U.S. DEPARTMENT OF THE TREASURY
       BUREAU OF THE PUBLIC DEBT TRUST FUND MANAGEMENT BRANCH
                          Notes to the Schedules of Selected Trust Funds
                                        September 30, 2009



Oil Spill Liability Trust Fund
The investments at September 30, 2009, are non-marketable, market-based intra governmental securities as
follows:

                                                          Net
                                                     unamortized
                                                       premium              Net              Market
                                       Cost           (discount)        investments           value
 One-day certificates            $   333,246,402         N/A             333,246,402        333,246,402
 Bills and notes                   1,062,454,390       36,192,024      1,098,646,414      1,123,037,700
            Total                $ 1,395,700,792       36,192,024      1,431,892,816      1,456,284,102


The net unrealized gain on investments is $24,391,286 at September 30, 2009.

Harbor Maintenance Trust Fund

The investments at September 30, 2009, are non-marketable, market-based intra governmental securities as
follows:

                                                          Net
                                                     unamortized
                                                       premium              Net              Market
                                       Cost           (discount)        investments           value
 One-day certificates            $   466,599,416         N/A             466,599,416        466,599,416
 Bills and notes                   4,500,029,744       40,488,604      4,540,518,348      4,700,025,046
            Total                $ 4,966,629,160       40,488,604      5,007,117,764      5,166,624,462


The net unrealized gain on investments is $159,506,698 at September 30, 2009.




                                               16
                         U.S. DEPARTMENT OF THE TREASURY
             BUREAU OF THE PUBLIC DEBT TRUST FUND MANAGEMENT BRANCH
                                Notes to the Schedules of Selected Trust Funds
                                              September 30, 2009



      Inland Waterways Trust Fund

      The investments at September 30, 2009, are non-marketable, market-based intra governmental securities as
      follows:

                                                                    Net
                                                               unamortized
                                                                 premium                Net          Market
                                                 Cost           (discount)          investments       value
             One-day certificates         $     2,009,609          N/A                2,009,609      2,009,609
             Bills                             58,074,868           (55,122)         58,019,746     58,044,605
                      Total               $    60,084,477           (55,122)         60,029,355     60,054,214


      The net unrealized gain on investments is $24,859 at September 30, 2009.

      South Dakota Terrestrial Wildlife Habitat Restoration Trust Fund

      The investments at September 30, 2009, are non-marketable, market-based intra governmental securities as
      follows:

                                                                   Net
                                                              unamortized
                                                                premium                  Net         Market
                                               Cost            (discount)           investments       value
            One-day certificates          $ 21,606,728            N/A                 21,606,728    21,606,728
            Notes                           109,334,480          (236,852)          109,097,628    114,875,151
                      Total               $ 130,941,208          (236,852)          130,704,356    136,481,879


      The net unrealized gain on investments is $5,777,523 at September 30, 2009.

(3)   Change in Program Agency Equity
      Federal Supplementary Medical Insurance Trust Fund
      Change in program agency equity for the year ended September 30, 2009, is:

                         Balance, beginning of year                 $ 59,846,695,346
                         Increase in balance                           2,706,957,133
                         Balance, end of year                       $ 62,553,652,479



                                                      17
                   U.S. DEPARTMENT OF THE TREASURY
       BUREAU OF THE PUBLIC DEBT TRUST FUND MANAGEMENT BRANCH
                          Notes to the Schedules of Selected Trust Funds
                                       September 30, 2009



Federal Hospital Insurance Trust Fund
Change in the program agency equity for the year ended September 30, 2009, is:

                   Balance, beginning of year                 $ 323,220,768,851
                   Decrease in balance                           (9,308,715,782)
                   Balance, end of year                       $ 313,912,053,069


Highway Trust Fund
Change in program agency equity for the year ended September 30, 2009, is:

                   Balance, beginning of year                 $  15,079,242,482
                   Decrease in balance                          (2,508,943,993)
                   Balance, end of year                       $ 12,570,298,489


The program agency equity available as of September 30, 2009 is $12,570,298,489. However, Congress
has authorized appropriations in excess of current available trust fund assets that amounts to
$18,503,662,819 after considering amounts already transferred to the program agency.

Airport and Airway Trust Fund

Change in program agency equity for the year ended September 30, 2009, is:

                   Balance, beginning of year                 $   8,594,919,325
                   Decrease in balance                            (923,388,924)
                   Balance, end of year                       $   7,671,530,401


Hazardous Substance Superfund Trust Fund
Change in program agency equity for the year ended September 30, 2009, is:

                   Balance, beginning of year                 $   2,929,126,528
                   Increase in balance                              520,236,520
                   Balance, end of year                       $   3,449,363,048




                                                18
                   U.S. DEPARTMENT OF THE TREASURY
       BUREAU OF THE PUBLIC DEBT TRUST FUND MANAGEMENT BRANCH
                          Notes to the Schedules of Selected Trust Funds
                                       September 30, 2009



Leaking Underground Storage Tank Trust Fund
Change in program agency equity for the year ended September 30, 2009, is:

                   Balance, beginning of year                 $   3,238,177,195
                   Increase in balance                              174,073,647
                   Balance, end of year                       $   3,412,250,842


Oil Spill Liability Trust Fund
Change in program agency equity for the year ended September 30, 2009, is:

                   Balance, beginning of year                 $   1,182,028,537
                   Increase in balance                              266,861,610
                   Balance, end of year                       $   1,448,890,147


Harbor Maintenance Trust Fund
Change in program agency equity for the year ended September 30, 2009, is:

                   Balance, beginning of year                 $   4,651,579,652
                   Increase in balance                              460,955,110
                   Balance, end of year                       $   5,112,534,762


Inland Waterways Trust Fund
Change in program agency equity for the year ended September 30, 2009, is:

                   Balance, beginning of year                 $     130,793,614
                   Decrease in balance                             (73,072,259)
                   Balance, end of year                       $      57,721,355




                                                19
                          U.S. DEPARTMENT OF THE TREASURY
              BUREAU OF THE PUBLIC DEBT TRUST FUND MANAGEMENT BRANCH
                                 Notes to the Schedules of Selected Trust Funds
                                               September 30, 2009



      South Dakota Terrestrial Wildlife Habitat Restoration Trust Fund
      Change in program agency equity for the year ended September 30, 2009, is:

                          Balance, beginning of year                   $     118,301,535
                          Increase in balance                                 13,265,251
                          Balance, end of year                         $     131,566,786


      The Water Resources Development Act of 1999 dated August 17, 1999 (Public Law 106-53, Title VI,
      Section 603) states that all amounts credited as interest shall be available, without fiscal year
      limitation, to the State of South Dakota for use in accordance with this legislation after the fund
      has been fully capitalized in accordance with this legislation after the aggregate amount deposited
      into the fund is in excess of $108 million. As of September 30, 2009, the amount available to the State
      of South Dakota is $21,566,786.

(4)   Other Income
      South Dakota Terrestrial Wildlife Habitat Restoration Trust Fund
      The $10,000,000 of other income for the year ended September 30, 2009 represents the amounts deposited
      into the trust fund by the Secretary of the Treasury in accordance with the trust fund’s enabling legislation
      (Public Law 106-53, Title VI, Section 603).

(5)   Related Parties
      TFMB, on behalf of the Secretary of the Treasury, compiles amounts deposited into the trust funds, invests
      receipts in Treasury securities, redeems securities and transfers funds to the program agencies, maintains
      accounting records for receipts and disbursements of the trust funds, and reports trust fund financial
      activity to the program agencies and other interested parties. The program agencies, OTA, IRS, and/or
      FMS determine the amounts to be deposited in the trust funds. The program agencies determine the
      disposition of the trust fund balances.




                                                        20
